                Department of Defense Office of Inspector General
Report No. D-2007-049                                                    January 25,2007
   (Project No. D2006-DOOOLA-0092.000)

                      Equipment Status of Deployed Forces
                       Within the U.S. Central Command

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for equipping
U.S. forces to perform missions within the U.S. Central Command should read this
report. The report identifies equipment shortages that Service members who performed
missions in Iraq and Afghanistan experienced because standard processes to establish
equipment requirements did not exist, force-protection equipment was not always
available, and policy that assigned Service responsibility for equipping units to perform
nontraditional missions in the U.S. Central Command did not exist.
Results. We performed this audit to determine whether units deployed to Iraq and
Afghanistan were equipped in accordance with mission requirements. Based on
responses from approximately 1,100 Service members, they experienced shortages of
force-protection equipment, such as up-armored vehicles, electronic countermeasure
devices, crew-served weapons, and communications equipment. As a result, Service
members were not always equipped to effectively complete their missions. We
recommend that the Deputy Chief of Staff for Operations and Plans, Headquarters,
Department of the h y continue to implement the Mission Essential Equipment List
process and develop and implement a tracking system for the four steps within the
process for all units conducting missions in and deploying to Iraq and Afghanistan, and
periodically review the process to determine whether Mission Essential Equipment Lists
updated by unit commanders reflect the current warfighting environment and specific
missions as they evolve. We also recommend that the Commander, U.S. Central
Command enforce policy requiring units rotating into theater to conduct a review of
current theater requirements for up-armored vehicles, individual body armor, and
electronic countermeasure devices within 60 days of arrival in their area of responsibility;
obtain those updated requirements in a timely manner; confvm the validity of current
theater requirements for sourcing; and provide the updated requirements to the Deputy
Chief of Staff for Operations and Plans, Headquarters, Department of the Army so that
the validated theater requirements can be satisfied (finding A).
The Request for Forces process did not always ensure that Service members who
performed missions that they do not traditionally perform -- such as training, provincial
reconstruction, detainee operations, and explosive ordnance disposal -- received the
equipment necessary to perform their wartime mission. As a result, Service members
performed missions without the proper equipment, used informal procedures to obtain
equipment and sustainment support, and canceled or postponed missions while waiting to
receive equipment. We recommend that the Under Secretary of Defense for Personnel
and Readiness develop and implement policy that addresses inter-Service responsibilities
for funding, equipping, and sustaining forces performing nontraditional missions. We
also recommend that the Commander, U.S. Central Command enforce existing policies
 that require Requests for Forces to include detailed equipment requirements for missions
 to be performed by In Lieu Of forces (finding Q.,
                                                       \I   '

 The U. S. Central Command's-and the Army's internal controls were not adequate. We
 identified material internal control weaknesses in the administration of the equipment
 requirements processes. See the Findmgs section of the report for detailed
 recornendations .
 Scope Limitations. The Multi-National Corps-Iraq and the Combined Forces
 Command-Afghanistan command staff limited the locations we visited, the units we
reviewed, and the number of Service members who participated in sensing sessions
because of scheduled operational missions, safety concerns, and availability of
transportation. As a result, we interviewed available Service members. For example, our
limited access into Iraq occurred when we requested to enter the country to conduct
fieldwork during April 2006 and Multi-National Corps-Iraq officials denied the request
because,of operational requirements. Multi-National Corps-Iraq subsequently approved a
visit for June 2006, but the 20-day requested visit was limited to 10 days.
Finally, Service members stated that, when possible, they used informal procedures to
obtain the force-protection equipment they needed to perfom missions off base in Iraq
and Afghanistan, including borrowing equipment from and tradmg equipment with other
Service members. As a result, infomation in this report reflects testimonial evidence of
those Service members that we interviewed because we were not able to validate
testimonial evidence against documentation that either did not exist or was incomplete.
See Appendix A for additional mfomation on the scope, methodology, and limitations.
Other Audit Coverage. The DoD IG issued an audit report, "The Army Small Arms
Program That Relates to Availability, Maintainability, and Reliability of Small Arms to
Support the Warfighter," Report No. D-2007-010 on November 2,2006. That report
states that the Army equipped its deployed forces in support of Operation Iraqi Freedom                '

with the small arms necessw to meet Combatant commanders' requirements, and this
report identifies shortages of crew-served weapons for U.S. forces in support of
Operation Enduring Freedom.
Management Comments. We issued the draft report on October 30,2006. The
Assistant Deputy Under Secretgry of Defense (Program Support), responding for DoD ,*
and the Inspector General, U.S. Central Command, responding on behalf of the
Commander, U.S. Central Command, concurred with the recommendations. The
Director for Capabilities Integration, Prioritization, and Analysis, responding on behalf of
the Deputy Chef of Staff for Operations and Plans, Headquarters, Department of the
h y , nonconcuned with the recommendations. Specifically, the Director stated that
continued implementation of the Wssion Essential Equipment Lists will not correct or
prevent the equipment shortages, and that the Army will continue to use a combination of
the Mission Essential Equipment Lists and the Unit Deploy List formula for determining
unit equipment requirements. The Director also stated that it is impossible for any
element outside the warfighting chain of command to determine if the equipment list
accurately reflects the unit's assigned mission and operational environment, and that
validation of the Mission Essential Equipment List serves only as a configuration
management functionin support of resource allocation decisions. See the Findings


*DODincludes the Under Secretary of.Defense for Acquisition, Technology, and Logistics and the Under
 Secretary of Defense for Personnel and Readiness.
section of the report for a discussion of the management comments and the Management
Comments section of the report for the complete text of comments.
Audit Response. We consider the Assistant Deputy Under Secretary of Defense
(Program Support) and U.S. Central Command's comments to be partially responsive,
and request additional comments on the final report identifying specific actions they will
take to implement their respective recommendations. Additionally, we consider the
Director for Capabilities Integration, Prioritization, and ~ n a l ~ s i scomments
                                                                           's      to be
nonresponsive. The Deputy Chief of Staff of the Arrny for Operations and Plans agreed
with the June 28,2006, b y Audit Agency report recommendation to continue to
develop, implement, and review the ~Tssio-n~ssentialEquipment List process to reflect
the true equipment requirements of the Combatant command, but subsequently reverted
to using the Unit Deploy List formula in combination with Mission Essential Equipment
Lists to identify equipment requirements. The Army did not explain how using the Unit
Deploy List formula in combination with the Mission Essential Equipment List process
will provide unit commanders with authorized and validated equipment requirements in a
baseline equipping document. We request that the Under Secretary of Defense for
Personnel and Readiness; Deputy Chief of Staff for Operations and Plans, Headquarters,
Department of the Arrny; and the Commander, U.S. Central Command submit additional
comments on the final report by February 25,200'7.
